AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

 POLICING SERVICES AND OFFICE OF JUSTICE 

      PROGRAMS GRANTS AWARDED TO 

    THE CITY OF BOSTON, MASSACHUSETTS 



         u.s. Department of Justice
       Office of the Inspector General
                Audit Division

         Audit Report GR-70-13-001 

               November 2012 

    AUDIT OF THE OFFICE OF COMMUNITY ORIENTED

 POLICING SERVICES AND OFFICE OF JUSTICE PROGRAMS

                GRANTS AWARDED TO

        THE CITY OF BOSTON, MASSACHUSETTS


                        EXECUTIVE SUMMARY


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
grant number 2009-RJ-WX-0049, and the Office of Justice Programs (OJP)
Bureau of Justice Assistance Recovery Act Edward Byrne Memorial Justice
Assistance Grant (JAG), grant number 2009-SB-B9-0241, awarded to the
City of Boston, Massachusetts (Boston). Collectively, the grants totaled
$15,750,421. The general purpose of the grants was to preserve jobs,
promote economic recovery, and increase crime prevention efforts. In
addition, COPS awarded CHRP funding to increase community policing
capacity and crime-prevention efforts and OJP awarded JAG funding to
improve the effectiveness and efficiency of state and local criminal justice
systems.

      The objective of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed Boston’s program performance in
meeting the grants’ objectives and overall accomplishments.

      We reviewed Boston’s compliance with key award conditions and found
Boston generally met the terms and conditions of the awards governing
most of the grant management areas we tested. However, we identified
three findings related to the CHRP application, the indirect cost rate used for
the JAG grant, and financial reporting.

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with Boston officials and have
included their comments in the report, as applicable. In addition, we
requested a response to our draft report from the City of Boston, COPS and
OJP, and their responses are appended to this report as Appendices II, III
and IV, respectively. Our analysis of all responses, as well as a summary of
actions necessary to close the recommendations can be found in Appendix V
of this report.




                                    ii

                                 TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1

The Office of Community Oriented Policing Services ......................... 1

Office of Justice Programs............................................................. 2

American Recovery and Reinvestment Act. ..................................... 2

City of Boston ............................................................................. 3

Our Audit Approach ..................................................................... 4


FINDINGS AND RECOMMENDATIONS........................................ 6

Internal Control Environment ........................................................ 6

CHRP Application Statistics ........................................................... 7

Salary and Fringe Benefit Expenditures ......................................... 8

Budget Management and Control..................................................10

Indirect Costs ............................................................................12

Reporting ..................................................................................13

Drawdowns................................................................................15

Compliance with Other Award Requirements ..................................16

Program Performance and Accomplishments .................................18

Conclusion .................................................................................19

Recommendations ......................................................................19


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........20


APPENDIX II - CITY OF BOSTON RESPONSE TO THE DRAFT

   AUDIT REPORT ................................................................. 22


APPENDIX III - OFFICE OF JUSTICE PROGRAMS RESPONSE

   TO THE DRAFT AUDIT REPORT ......................................... 25


APPENDIX IV - OFFICE OF COMMUNITY ORIENTED POLICING

   SERVICES RESPONSE TO THE DRAFT AUDIT REPORT ....... 27


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT ..................................................... 29

                            INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of two grants awarded as part of the
American Recovery and Reinvestment Act of 2009 (Recovery Act) to the city
of Boston, Massachusetts (Boston). These grants were an Office of
Community Oriented Policing Services (COPS) Hiring Recovery Program
(CHRP) grant and an Office of Justice Programs (OJP) Bureau of Justice
Assistance (BJA) Recovery Act Edward Byrne Memorial Justice Assistance
Grant (JAG), in the amounts of $11,843,200 and $3,907,221 respectively.
The purpose of Boston’s Recovery Act awards was to prevent the layoff of
98 police officers in an effort to preserve jobs, to increase Boston’s
community policing capacity and crime-prevention efforts, promote the city’s
community policing mission, and to reduce violence through critical
enforcement, intervention and prevention efforts.

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
awards. We also assessed Boston’s program performance in meeting grant
objectives and overall accomplishments. The following table shows the total
funding for the grants.

              COPS Hiring and OJP Recovery Act Grants

                       Boston, Massachusetts

    GRANT NUMBER    START DATE     END DATE       AMOUNT
  2009-RJ-WX-0049        07/01/2009     06/30/2012         $11,843,200
   2009-SB-B9-0241       03/01/2009     02/28/2013          $3,907,221
        TOTAL:                                           $15,750,421
Source: COPS and OJP

The Office of Community Oriented Policing Services

       The Office of Community Oriented Policing Services (COPS), within the
Department of Justice, assists law enforcement agencies in enhancing public
safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. The COPS office provides
funding to state, local, and tribal law enforcement agencies and other public
and private entities to hire and train community policing professionals,
acquire and deploy cutting-edge crime-fighting technologies, and develop
and test innovative policing strategies.
Office of Justice Programs

      The mission of the Office of Justice Programs (OJP) is to increase
public safety and improve the fair administration of justice across America
through innovative leadership and programs. OJP works in partnership with
the justice community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

Bureau of Justice Assistance

       The mission of the Bureau of Justice Assistance (BJA), a component of
OJP, is to provide leadership and services in grant administration and
criminal justice policy development to support local, state, and tribal justice
strategies to achieve safer communities. BJA has three primary
components: Policy, Programs, and Planning. The Policy Office was
established to provide national leadership in criminal justice policy, training,
and technical assistance to further the administration of justice. It also acts
as a liaison to national organizations that partner with BJA to set policy and
help disseminate information on best and promising practices. The Programs
Office works to coordinate and administer all state and local grant programs
and acts as BJA's direct line of communication to states, territories, and
tribal governments by providing assistance and coordinating resources. The
Planning Office works to coordinate the planning, communications, and
budget formulation and execution, and provide overall BJA-wide
coordination.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to the COPS


                                     -2­
Office for grants to state, local, and tribal governments to hire or retain
police officers. Another $2 billion was provided to OJP for Byrne JAG grants.

COPS Hiring Recovery Program Grant

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers. The
grants were competitively awarded based on data submitted by each
applicant related to fiscal and economic conditions, rates of crime, and
community policing activities.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

       The Byrne JAG (JAG) program is the primary provider of federal
criminal justice funding to state and local jurisdictions. Recovery Act JAG
funds supported all components of the criminal justice system, from multi-
jurisdictional drug and gang task forces to crime prevention and domestic
violence programs, courts, corrections, treatment, and justice information
sharing initiatives. These JAG grants funded projects to address crime by
providing services to individuals and communities, and the projects were
designed to improve the effectiveness and efficiency of state and local
criminal justice systems. OJP awarded these Recovery Act JAG grants based
on a state’s share of the national population as well as the state’s share of
violent crime statistics. Local governments received direct funding that was
based on the local government’s share of total violent crime within their
state.

City of Boston

       Boston is both the largest city and the capital of the Commonwealth of
Massachusetts. Boston has become the cultural and economic hub for the
New England region. The Commonwealth of Massachusetts provides the city
its second largest source of revenue and in Fiscal Year (FY) 2012 the city
experienced its fourth year of reduced funding from the Commonwealth.
The Boston Police Department is included in the city’s Public Safety
Department and includes over 2,000 sworn officers. A number of officers


                                     -3­
are deployed in Project Safe Street Teams, a law enforcement initiative
designed to focus Community Policing efforts on 14 of the city’s highest
crime areas.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the award. Unless otherwise stated in our report, the criteria
we audit against were contained in Code of Federal Regulations:
28 CFR § 66, the 2009 CHRP Grant Owner’s Manual, the Uniform
Administrative Requirements for Grants, the OJP Financial Guide, and the
specific terms and conditions of each grant award. We tested Boston’s:

     •	 Internal control environment to determine whether the financial
        accounting system and related internal controls were adequate to
        safeguard award funds and ensure compliance with the terms and
        conditions of the awards.

     •	 CHRP application statistics to assess the accuracy of key
        statistical data that the grantee submitted with its CHRP application.

     •	 Salary and fringe benefit expenditures to determine whether
        the salaries and fringe benefits charged to the awards were
        allowable, supported, and accurate.

     •	 Budget management and control to determine whether Boston
        adhered to the COPS and OJP-approved budgets for the expenditure
        of grant funds.

     •	 Indirect costs to determine Boston’s procedures and charges
        related to indirect costs.

     •	 Reporting to determine if the required periodic Federal Financial
        Reports, Progress Reports, and Recovery Act Reports were
        submitted on time and accurately reflected award activity.

     •	 Drawdowns (request for grant funding) to determine whether
        requests for reimbursements were adequately supported and if
        Boston managed grant receipts in accordance with federal
        requirements.

     •	 Compliance with other award conditions to determine whether
        Boston complied the terms and conditions of the grants.



                                    -4­
     •	 Program performance and accomplishments to determine
        whether the Boston achieved grant objectives and to assess
        performance and grant accomplishments.

      When applicable, we also test for compliance in the areas of matching
funds, accountable property, monitoring subcontractors, and program
income. For these grants, matching funds were not required and there was
no accountable property, subcontractors, or program income.




                                   -5­
              FINDINGS AND RECOMMENDATIONS


     We determined that Boston generally complied with the terms
     and conditions of the Recovery Act CHRP and JAG grants
     governing most of the grant management areas we tested.
     However, we found (1) the CHRP application contained
     inaccurate data that could have impacted the city’s award;
     (2) the indirect cost rate used by Boston in its application and
     approved by OJP was inaccurate; and (3) Boston did not
     properly report the indirect costs on the Federal Financial
     Report when expended. These conditions, including the
     underlying causes and potential effects on both grants, are
     discussed in the body of the report.

Internal Control Environment

       Our audit included a review of Boston’s accounting and financial
management system and Single Audit Reports to assess the risk of
non-compliance with laws, regulations, guidelines, and the terms and
conditions of the grant awards. We also interviewed management
staff from the organization and performed salary and benefit testing to
further assess risk.

      According to the OJP Financial guide grant recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls. An acceptable internal control system provides cost and
property controls to ensure optimal use of funds.

       Officials told us they believed an adequate system of internal
controls was in place. However, our review of the Recovery Act
requirements and indirect costs indicated improvements can be made
in the Boston’s system of internal controls. These internal control
deficiencies are discussed in detail in the body of the report.

Financial Management System

      The Code of Federal Regulations requires recipients to maintain
records to adequately identify the source and application of grant funds
provided for financially supported activities. These records must contain
information pertaining to grant awards and authorizations, obligations,
unobligated balances, assets, liabilities, outlays or expenditures, and
income.



                                    -6­
     We found that Boston maintained these records in two separate
accounts, one for the CHRP grant and another for the JAG grant. We
determined that the two accounts tracked obligations, outlays, and
expenditures allocated to each project.

Single Audits

     We reviewed Boston’s Single Audit Reports for FY 2009 and 2010 and
found no audit findings related to either the CHRP or the JAG grant.

CHRP Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate 1.
As a result, some agencies may have received grant funds based on
inaccurate applications. However, we were unable to determine the number
of applications that included inaccurate data.

      During this audit, we obtained documentation from Boston to support
the information it submitted to COPS to secure the 2009 CHRP grant and we
found an inaccuracy in the information submitted in the CHRP application.
Specifically, we found an inaccuracy in the application data regarding the
number of aggravated assaults, with a difference of 7,389 incidents from the
actual figure. According to the Boston officials, the figure for simple assaults
was incorrectly included in the aggravated assault category, inflating the
number of aggravated assaults. Because the application information was
used to determine the grantee’s eligibility to receive the grant, we
performed a sensitivity analysis using COPS’ methodology. The purpose for
the sensitivity analysis was to examine whether the changes made to the


      1
         U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).



                                         -7­
application data were significant enough to affect the Boston’s eligibility to
receive the grant. We found that the corrected data did not affect Boston’s
chances of receiving the grant and the award would have been maintained
using the corrected audited data.

       Because the data that grantees submit are relied upon to award
substantial grants, we believe it is vital that grantees ensure that the data
and information submitted to awarding agencies is accurate. In this case,
Boston’s inaccurate application data did not significantly affect the suitability
of its award. Nonetheless, future inaccurate data may have a substantial
effect on award decisions. As a result, we recommend that Boston
establishes procedures to ensure it submits accurate information for its
future grant applications.

Salary and Fringe Benefit Expenditures

       We found that Boston correctly ensured that it only charged the entry-
level salary approved in the CHRP budget for each grant-funded officer.
Boston also properly charged fringe benefits that were approved in the CHRP
grant. In addition, Boston correctly charged the salaries of officers funded
through the JAG grant.

       We tested a judgmental sample of Boston’s salary and fringe benefit
expenditures to determine if they were allowable, supportable, and accurate.
To determine if expenditures were allowable, we compared the expenditures
to approved expenditures incorporated in the terms and conditions of the
grants. To determine if expenditures were supported and accurate, we
tested salary and benefit expenditures by evaluating the allocation of
salaries and benefits based on the requirements identified by COPS and OJP
in the respective award documents. We examined officer payroll records for
14 of the 98 grant funded officers for two non-consecutive pay periods and
we tested accounting records supporting salary and fringe benefit
expenditures for one year of the COPS grant and salary expenditures for one
year of the JAG grant.

COPS Hiring Recovery Program Grant

      According to the CHRP grant application and award documentation, the
CHRP grants were intended to provide 100 percent funding for the approved
entry-level salaries and fringe benefits of full-time sworn career law
enforcement officers. In cases where the officer’s salary and fringe benefits
exceeded that of entry-level officers, the additional costs were/are the
responsibility of the grantee.



                                      -8­
       We found Boston officials segregated grant-funded expenditures into
separate accounts. Within the accounts officials verified the salary and
benefits paid to each officer on a weekly basis. Because an officer’s total
salary, not the required entry-level salary, was initially reported in the
accounting system, Boston established additional segregated accounting
codes to reduce the total salary reported to the approved entry-level salary.
For example, Boston removed an officer’s overtime payments from the grant
account. To ensure only entry-level salaries were charged to the grant, at
the end of each year, Boston reconciled the accounting codes by deducting
all salary expenditures above the entry-level from the total salary reported
in the accounting system. The results of this reconciliation reduced the total
salaries initially reported in the accounting system to the grant-approved
entry-level salary.

      Boston received an approved benefit rate of 26.49 percent in its award
document. In the segregated accounting records Boston again established
separate accounting codes to ensure only approved benefits were reported
in the account. At the end of each year Boston reconciled the total actual
benefits reported in the accounting system to ensure they did not exceed the
approved benefit rate of 26.49 percent.

       We determined Boston’s methodology was accurate by comparing the
first year salary and benefit expenditures officials reported in the accounting
records to the salary and benefit expenditures we calculated using Boston’s
methodology.

       In addition to verifying accounting records we reviewed payroll records
and personnel files to ensure: (1) weekly payrolls were accurately recorded
in the accounting system, (2) supervisors reviewed and approved the
officer’s timesheets, and (3) grant funded officers were eligible for benefits.

       Based on our review of payroll records, personnel files, and our
verification of Boston’s accounting methodology we concluded that Boston
officials met the terms and conditions of the grant for accurately accounting
for CHRP salary and benefit expenditures.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

       The JAG grant initially provided Boston with a formula based grant to
provide salary and fringe benefits for 48 officers and indirect costs for one
year. Subsequently, Boston received approval from OJP to modify the initial
award budget to delete fringe benefit funding and include only one year of
officer salary funding. Boston then followed a similar methodology to the
one described above to track and charge the salaries to the grant. However,


                                     -9­
for the JAG grant Boston was allowed to charge the actual salaries paid to
each individual. We found evidence that unallowable costs such as overtime
were segregated from the officer’s total salary and removed from the total
expenditures requested for reimbursement. We also verified weekly payrolls
were accurately recorded in the accounting system and that the supervisors
approved the time sheets tested.

       Based on our review of payroll records, personnel files, and our
verification of Boston’s accounting methodology we concluded that Boston
officials met the terms and conditions of the JAG grant for accurately
reporting salary expenditures.

Budget Management and Control

      Criteria established in 28 C.F.R § 30 addresses budget controls
surrounding grantee financial management system. According to the C.F.R.,
grantees are permitted to make changes to their approved budgets to meet
unanticipated program requirements. However, the movement of funds
between approved budget categories in excess of 10 percent of the total
award must be approved in advance by the awarding agency. Budget
management controls ensure federal funds are not exposed to unauthorized
expenses, misuse, and waste.

       COPS approved an itemized budget for the CHRP grant that included
budget categories for salary and fringe benefits. In their application for JAG
funding city officials included a budget with expenditures for sworn officer
salaries and indirect costs. While the CHRP grant was still in progress at the
time of our audit, Boston appeared to remain within the approved budget
allowance for each category for this grant. Boston also remained within the
approved budget allowance for the completed JAG grant.

COPS Hiring Recovery Program Grant

      The CHRP approved budget was based on the first year officer base
salary for 2008, $54,147 and Boston’s benefit rate of 26.49 percent.
Boston’s methodology to account for grant expenditures included segregated
accounts to track expenditures during the year and, at the end of each year,
a reconciliation to ensure only approved expenditures were charged to the
grant. Boston followed a similar methodology to maintain expenditures
within the required budget categories. We found that during the year-end
reconciliation of grant expenditures Boston included a step to compare
actual expenditures to the grant’s approved budget categories.




                                    - 10 ­
      We compared the first year of grant expenditures from the city’s
accounting records to the expenditures COPS approved in the Financial
Clearance Memorandum and found that the city remained within the allowed
10 percent deviation range for the grant budget.

      We also noted that first year fringe benefit expenditures accrued at a
rate below planned. This occurred because the approved fringe benefit
consisted of three elements: (1) health, (2) retirement, and (3) Medicare.
The retirement and Medicare components are predictable because they
accrue at a fixed rate – 9.00 percent and 1.45 percent, respectively.
However, the benefit component – 16.04 percent – is less predictable
because it is dependent on the number of officers who select health benefits
as well as the type of health benefits they select. Thus, the unpredictability
of the expenditure caused health benefit expenditures to accrue at a rate
well below planned.

       We asked Boston officials about the potential for fringe benefit funding
that could remain unspent at the end of the grant. Officials told us that
during the first year of the award they did not record benefit expenditures
during the first six pay periods because they were developing the fringe
benefit accounting codes required to track those expenditures. As a result,
they plan to request funding for the initial benefit expenditures during their
final reconciliation of grant expenditures. They also plan to submit a budget
modification to COPS to request the reallocation of any unspent fringe
benefit expenditures.

      Because officials used Boston’s approved fringe benefit rate to
establish their benefit budget line item, and because expenditures remained
within the ten percent total award allowable deviation, we concluded the city
met the terms and conditions of the award.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      In order to track grant expenditures and meet the terms and
conditions of the JAG grant, Boston included a projected budget in their
application based on actual officer salaries and indirect costs. We reviewed
accounting records and found officials used the same methodology described
in the previous section of the report to determine grant funded salary
expenditures. They also made one indirect cost charge to the award that
equaled their budgeted amount. We concluded that Boston met the terms
and conditions of the JAG grant.




                                    - 11 ­
Indirect Costs

      Indirect costs are the costs of an organization that are not readily
assignable to a particular project, but are necessary to the operation of the
organization and the performance of the project. The cost of operating and
maintaining facilities, depreciation, and administrative salaries are examples
of the types of costs that are usually treated as indirect costs. According to
the JAG grant application, indirect costs were only allowed if the applicant
had a federally approved indirect cost rate and documentation for the rate
was provided by the applicant. Indirect costs were included in Boston's JAG
grant but not in the CHRP grant. Boston's approved indirect cost rate
equaled 5.9 percent of direct cost award funding.

      As the JAG grant was a formula grant based on crime data, Boston
was designated by OJP to receive the total award amount of $3,907,221 for
the grant. Boston then allocated their budget accordingly so that the direct
costs plus the indirect costs equaled the total grant award. However, we
found that Boston miscalculated its indirect costs in its grant application,
causing the direct costs and indirect costs to be incorrect in Boston's project
budget. In its grant application, Boston applied its approved 5.9 percent
rate to the total grant award of $3,907,221 instead of applying it only to a
direct cost amount so that the indirect costs plus the direct costs equaled
the total award amount. As a result, Boston budgeted $230,427 for indirect
costs, which totaled 6.2 percent of the total grant funding, rather than
$217,683, which would have represented 5.9 percent of the direct costs.

                      Budget Using Boston's Approved 

                            Indirect Cost Rate 

                         DIRECT        INDIRECT                        TOTAL
    DESCRIPTION                                     PERCENTAGE
                         COSTS           COSTS                         AWARD

ApPROVED BUDGET        $3 676 794      $230427           6.2        $3 907 221
BUDGET USING
ApPROVED INDIRECT      $3,689,538      $217,683          5.9        $3,907,221
COST RATE


      During our audit, Boston officials provided support for one indirect cost
expenditure charged to the grant totaling $230,427 based on the incorrect
calculation used in the grant application. While the rate amount of indirect
costs charged to the grant technically exceeded the approved rate, Boston
remained within the budget provided and approved by OJP.

      Boston officials acknowledged that they used an inaccurate indirect
cost rate in their application for funding. We concluded Boston should


                                     - 12 ­
improve its internal control process to ensure award applications reflect
accurate indirect cost rates, and OJP should ensure such indirect costs are
correctly calculated.

Reporting

Federal Financial Reports

      The financial aspects of the grants are monitored through Federal
Financial Reports (FFRs). FFRs are designed to describe the status of grant
funds and should be submitted within 30 days of the end of the most recent
quarterly reporting period. For periods when there have been no program
outlays, a report to that effect must be submitted. Funds for the current
award or future awards may be withheld if reports are not submitted or are
excessively late.

       Boston officials told us they completed FFRs using the accounting
codes established for each grant. We sampled six CHRP grant FFRs between
July 2009 and March 2011. We concluded the six reports tested were
accurate because each project’s total expenditures reported in the FFR
agreed with the totals reported in Boston’s accounting records. We also
tested each FFR for timeliness using the criteria noted above and we found
officials submitted each FFR timely. Because each of the FFRs we tested was
accurate and submitted in a timely manner, we concluded officials met the
financial reporting standards for the CHRP grant.

       For the JAG grant we tested five FFRs that covered financial activity
between April 2010 and June 2011. We found officials submitted each FFR
timely. However, we determined the FFR for the July to September 2010
report period did not report indirect costs as required by the FFR
instructions. While the total federal expenditures reported for this period
included indirect costs, Boston did not report indirect costs separately in the
appropriate section of the report. These indirect costs were not reported
until we brought the omission to Boston’s attention. Timely reporting of
these indirect costs may have resulted in the earlier discovery of the
inaccurate indirect cost calculation discussed in the Indirect Cost section of
this report.

Progress Reports

      COPS established a quarterly requirement for CHRP progress reports.
The reporting requirements included a survey that required recipients to
report the number of jobs created or saved by grant funding and a self-
assessment of the recipient’s progress toward meeting its community


                                     - 13 ­
policing goals. COPS did not require the recipients to maintain
documentation to support their self-assessment of community policing goals.
We sampled the last four progress reports and found Boston submitted each
progress report within the required time period specified by COPS. In
addition, each report included all of the required reporting elements. We
concluded that Boston met the progress reporting requirement.

      The OJP Financial Guide established an annual progress reporting
requirement for JAG grants. The reports were due no later than December
31st of each year. We reviewed two of the three JAG progress reports
Boston submitted, covering the periods ending in December 2011 and
December 2012, and found Boston submitted each progress report within
the required time period specified by the OJP Financial Guide. The reports
included: (1) statistics relevant to the number of uniformed officers retained
with grant funding, (2) crime statistics that officials believed were impacted
by the grant, (3) information regarding the city’s Safe Streets Initiative. 2

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding are required to submit quarterly reports which include
both financial and programmatic data. The Recovery Act requires recipients
to submit their reporting data through FederalReporting.gov, an online web
portal that collects all the reports. Recipients must enter their data no later
than the 10th of the month after each quarter beginning September 30,
2009.

       Boston was responsible for submitting nine CHRP and nine JAG
Recovery Act reports during the period of review. We examined six
quarterly reports and we found the reports included the required elements.
We found officials submitted 5 of the 6 reports in a timely manner. One JAG
report was submitted 11 days late but we did not consider this to be
significant.

      Because Boston officials generally submitted each of the reports we
tested within the required timeframe and because the reports included all of
the required performance elements, we concluded that Boston met the
reporting requirements.


       2
           The city’s Safe Streets program focuses on problem areas in the city and places
officers trained in problem solving in high risk communities. The program is designed to
engage the community, to solve daily crime problems, and to provide intervention services
and referrals.



                                          - 14 ­
Drawdowns

      Drawdown is a term to describe when a recipient requests funding for
expenditures associated with a grant program. The OJP Financial Guide
establishes the methods by which DOJ makes payments to grantees.
Advances are allowed but non-formula grant funding must be used within 10
days of the transfer. To determine if drawdowns were completed in advance
or on a reimbursement basis, we interviewed grant officials and reviewed
documentation supporting the actual expenditures. We determined grant
funds were requested on a reimbursement basis in all instances. In
addition, we determined drawdowns were requested based on actual
expenditures and did not exceed grant expenditures.

COPS Hiring Recovery Program Grant

       At the time of our field work Boston had drawn down $6,084,491 of
the $11,843,200 total award. We examined seven drawdowns made
between March 2010 and August 2011. Boston used the segregated
accounting code for the CHRP grant to establish the amount of funding
requested for each drawdown. Because the grant funded only entry-level
salaries, Boston recognized that their methodology of reporting actual officer
salaries and periodically reconciling those expenditures could cause the
drawdowns to exceed the approved expenditures. To address this, Boston
consistently drew down less than the total expenditures reported by the
accounting records. For example to support the August 2011 cumulative
drawdown $6,084,491, Boston provided accounting records supporting
$6,367,213 of expenditures – a difference of $282,273.

     Because Boston could support their drawdown requests with
accounting records and because they addressed the potential for advanced
payments, we concluded Boston met the drawdown requirements related to
the CHRP grant.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      At the time of our field work, Boston had drawn down the entire
$3,907,211 JAG grant. We examined seven drawdowns Boston made
between November 2009 and August 2011. Boston used the same
methodology described in the preceding section to determine the JAG
drawdown amounts. While Boston incorrectly calculated the indirect costs
associated with this grant, they were able to provide accounting records to
support the cumulative drawdown of $3,907,221




                                    - 15 ­
      Because Boston could support their drawdown requests with
accounting records, we concluded they met the drawdown terms and
conditions of the JAG grant.

Compliance with Other Award Requirements

       Award requirements are included in the terms and conditions of a
grant and special conditions may be added to address special provisions
unique to an award. To ensure job growth or job preservation, the Recovery
Act stipulated that funds from both grants should be used to supplement
existing funding and not supplant, or replace, funding already appropriated
for the same purpose. The CHRP grant also required recipients to plan to
retain all sworn officer positions funded by the award for one year after the
grant ended. Our analysis showed that Boston adhered to the award
requirements for the CHRP and JAG grants.

Supplanting Analysis

      During our audit, we completed an analysis of the number of jobs
Boston preserved with Recovery Act funding through the grants, examining
the potential for supplanting.

       Boston received CHRP funding to retain 50 existing full-time uniformed
officer positions who would have been laid off as a result of events unrelated
to receiving federal funding. Boston received JAG grant funding to retain an
additional 48 officers. To support their applications for funding, Boston
officials provided budget documents that indicated they planned to layoff
uniformed officers if they did not receive the Recovery Act funding.

       To eliminate the potential for supplanting after a recipient receives
funding, the recipient is expected to maintain its local budget for sworn
officers during and after the period of the grant. Since both of the grants
were active at the time of our field work, we examined the Boston Police
Department’s budget and the number of sworn officers or full-time
equivalents (FTEs) during the 2008-2011 budget years.




                                    - 16 ­
                       Boston Police Department

                       Fiscal Years 2008 to 2011

                 Total Budget and Fulltime Equivalents

           FISCAL           TOTAL         PLANNED       ACTUAL
            YEAR           BUDGET           FTES         FTES

            2008            $270,693,354          2,235         2,228

            2009            $284,880,077          2,235         2,225

            2010            $270,874,945          2,170         2,173

            2011            $270,874,944          2,170         2,181
      Source: Boston Police Department

      As the table above demonstrates, beginning in 2010, Boston
decreased its police department budget by over $14 million and reduced the
planned number of FTEs by 65 officers. However, although the non-
supplanting requirement prohibits a recipient from reducing its sworn officer
budget after receiving a grant, federal regulations provide an exception to
the requirement if the recipient can demonstrate the reduction occurred for
reasons unrelated to grant funding.

      In April 2010, Boston received approval from COPS for an exception to
the supplanting rule because the reduction was unrelated to the receipt of
grant funding. We reviewed budget documents and found the reduction in
both the city’s police department budget and sworn officer strength resulted
from reductions in funding provided by the Commonwealth of
Massachusetts, not the receipt of grant funding. As a result, we concur with
COPS’ decision to provide the exception. Based on our review of budget
documents and sworn officer strength, we concluded the city met the
award’s non-supplanting requirement.

Retention Planning

       At the end of the grant recipients are expected to retain grant funded
officers by adding local funds to their projected budgets. The number
officers retained should be over and above the number of positions that
would have existed in the absence of the grant.

     Officials told us they were aware of the requirement to retain grant
funded officers with local funding. Since the grant has not ended we



                                         - 17 ­
reviewed both the 2011 and FY 2012 department budgets and found the city
included local funding to retain the grant funded officers.

Program Performance and Accomplishments

      Both the CHRP and the JAG grants included an objective to preserve
uniformed officer jobs that would have been eliminated if Boston did not
receive grant funding, based on the job preservation objective contained
within the Recovery Act. In addition, the CHRP grant also included an
objective to enhance Community Policing and the JAG grant included similar
objectives related to neighborhood foot patrols and rapid response to
emergency situations.

      As we noted earlier in the report, the city received CHRP and JAG
funding to preserve 50 and 48 uniformed officer jobs, respectively. Our
analysis of the potential for supplanting confirmed that the city preserved
the 98 uniformed officer jobs that would have been eliminated in the
absence of grant funding.

       In the CHRP Application Guide, COPS identified the methods for
measuring a grantee’s performance in meeting the CHRP grant objectives.
According to COPS there were two objectives for the CHRP grant: (1) to
increase the capacity of law enforcement agencies to implement community
policing strategies that strengthen partnerships for safer communities and
enhance law enforcement’s capacity to prevent, solve, and control crime
through funding additional officers, and (2) to create and preserve law
enforcement officer jobs. Quarterly progress reports describe how CHRP
funding was being used to assist the grantee in implementing its community
policing strategies and detailing hiring and rehiring efforts were to be the
data source for measuring performance. However, COPS did not require
grantees to track statistics to respond to performance measure questions in
the progress reports. In addition, the grantee’s community policing
implementation rating, contained in the progress report, would not be used
in determining grant compliance.

       We interviewed officials, reviewed progress reports, and budget
documents and found evidence of community policing related activities. For
example, Boston’s Safe Street Teams Initiative targets the city’s highest risk
places and individuals to maximize the officer’s impact on crime. Officers
assigned to these high risk areas are trained to solve daily crime-related
problems, to engage with community members, and to provided intervention
services and referrals. Officials reported positive community feedback and
calls to expand the initiative by increasing the number teams. Officials also



                                    - 18 ­
indicated the initiative contributed to a reduction in crime in the targeted
neighborhoods.

Conclusion

      We found Boston generally met the terms and conditions for the CHRP
and JAG grants we reviewed governing most of the grant management areas
we tested. Specifically, Boston utilized grant funds for the purposes of the
grants, to retain officer positions, appropriately managed and used those
funds, and demonstrated that the positions funded by the grants would be
retained in the future.

      However, we found inaccuracies in Boston’s indirect cost calculation for
the JAG grant, its FFR reporting for the JAG grant, and its CHRP grant
application. As a result, we make three recommendations to address these
findings.

Recommendations

We recommend that OJP:

1.	 Ensure Boston computes its indirect costs correctly.

2.	 Ensure Boston completes the Federal Financial Reports accurately.

We recommend that COPS:

3.	 Ensure Boston develops internal control procedures to accurately report
    Recovery Act application statistics.




                                     - 19 ­
                                                              APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) CHRP application
statistics, (3) salary and fringe benefit expenditures, (4) budget
management and controls, (5) indirect costs, (6) reporting, (7) drawdowns,
(8) compliance with other award requirements, and (9) program
performance and accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       We audited a total of $15,750,421 provided through an Office of
Community Oriented Policing Services Hiring Recovery Program Grant and
an Office of Justice Programs, Bureau of Justice Assistance FY 2009
Recovery Act Edward Byrne Memorial Justice Assistance Grant awarded to
the City of Boston, Massachusetts. Our audit concentrated on, but was not
limited to the initial award of the JAG grant in May 2009, through the end of
our field work in January 2012.

       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against are contained in the Code of Federal Regulations: 28 CFR
§ 66, Uniform Administrative Requirements for Grants, the Office of Justice
Programs Financial Guide, and the award documents. We also reviewed
Boston’s most recent Single Audits for the periods ending in June 2009 and
June 2010 and identified no findings that could impact the grant funding we
audited. In addition, both COPS and OJP conducted site visits and we
identified no significant findings that could impact the scope or methodology
for our audit.

      In conducting our audit, we tested the Boston’s award activities in the
following areas: internal controls, salary and fringe benefit expenditures,
budget management and controls, indirect costs, reporting, drawdowns,
program performance and accomplishments, and retention planning. In



                                    - 20 ­
addition, we reviewed the internal controls of the city’s financial
management system specific to the management of DOJ funds during the
award period under review. However, we did not test the reliability of the
financial management system as a whole. We also performed limited tests
of source documents to assess the accuracy and completeness of
reimbursement requests and Federal Financial Reports.




                                   - 21 ­
                                                                                            APPENDIX II


                         CITY OF BOSTON RESPONSE 

                        TO THE DRAFT AUDIT REPORT





Office of rhe Pollee Commissioner                                     1 Schroeder Plow, Basion, MA 02120·2014

                                                    October 9, 2012

      Thomas O. Pue~r
      Regional Audit Manager
      Philadelphia Regional Audit Office
      Office o f the inspector General
      U.S. Departmcnt of Justice
      701 Market SlIeet, Suite 201
      Philadelphia, PA 19106

       Re: Boston Police Department's written responsc to the draft audit report relative to the
       following two grants awarded to the City ofBostonIBoston Police Department under the
       AmericWl Recovery and Reinvestment Act of20q9;

          ..   Community Oriented Policing Services (Car S) Hiring grant award number 2009-RJ­
               WX-0049.
           •   Office of Justice Programs (OJ P}Edward Byrne Memorial Justice AssistanceGrnnt
               (JAG) Formula Program: Local Solicitation award number 2oo9-SB-B9-0241.

       Dear Mr. Puerzer,

       On behalf oflhe Boston Police Department (BPD), please aecept this Jetter as an official
       response to the draft audi t report of the above referenced grants dated Septem ber 25, 2012.
       have provided a response below in the same order in which the recommendations appear Oil page
       19 of the draft audit report.

       O rrico of Justice P rogr a nlS gra nt awa rd nu mber 2009-$8 -8 9-0241

       Reco mmendation iiI-E nsure Boston compu tes its indirect cos15 co rrectly
       This recolwm::ndation was based on an error that occurred as a result of Boston miscalculating its
       indirect cost.~ using the total grant award amount and not on the allowab le direct cost amount.

       The BPD concurs with this recommendation and has already taken the necessary steps to correct
       the indirect cost error.

          J. The department completed and submitted a revised Federal Financial Report reflecting
             the corrected figures (Anaclunent NI).
          2. Initiated a comprehensive review of all pending applications find current grants to ensure
             indirect COStS are properly calculated and accurately reported. Expected completion date
             for this review is October 31, 2012.
          3. Created and implementing as of October 15,20 12, a fonnal protocol to ensure that
             indirect cosu are correctly calculated when submitting future grant applicatioIlS to DO],
             and also ensuring that indirect costs expenditwes are reported on a quarterly basis
             (Attachment #2).                     .




                                                   - 22 ­
Page Two

Recon:nucudation #2-Ens ure Boston completes tbe Federal Financial Reports accurately.
This recommendation was based on an error that >'vas discovered in the July to September 20IC
quarterly Federal Financial Status report. Boston correctly reported the indirect cost expenditures
in this report, but mistakenly did not separately report these indirect costs expenditures in the
appropriate section on the bottom half of the Federal Financial Report.

The BPD concurs with this recommendation and ha~ Pllt in place the following protocol to
ensure that the indirect costs arc properly displayed in the appropriate section of all Federa l
Financial Reports.

    1. Created and implementing as of October 15, 20 12, formal protocol to ensure that indirect
       costs are accuratdy calculated and properly displayed in the appropriate section ofthe
       Federal Financial Report (Attaclunent #2).

Co mmunity Oriented Policing Services grant award 112009-RJ WX-0049

Recommendation #3 - Ensure Boston dcvelops inte"nal control procedurt:s to accurately
r eport Rccovery Act application s tati~tical data.

This recommendation was based on an elTor that was discovered relative to the assault numbers
that were supplied in the grant application. Boston mistakenly included the number of simple
assaults with the number of aggravated assaults.

The Office oflhe Inspector General used COPS' methodology to perform a sensitivity analysis
to examine whether the chnnges made to the application data were significant enough to affect
Boston's eligibility to receive the grant. The results showed that the corrected data did not impact
the grant award to the city of Boston. The report also stated that Boston'S inaCCUrate application
data did not significantly affect the suitability of its award.

The BPD concurs with this recorrunendalion and has put the following protocol in place to
ensure statistical data reported in all grant applications is correct_

    I. Created and implementing as of October 15, 2012, a fonnal protocol that will cnhance the
       review and approval of statistical data prior to grant submi~i on (Atlachment #2).

In closing. I would like to take this opportunity to thank the Department of Justice for their
continued support. These and other DOJ grants allow the City and the Department the ability to
keep officers on the street to continue our commitment of community policing and also provide
much needed services related to Violence Prevention, Reentry, Domestic V iolence AdVocacy,
Forensics and Technology.




                                              - 23 ­
I'nee T bree

The BPD fully understands that all of the information enclosed in the final audit report and this
response will be released to the public and be available for review at www.iustice.gov/oig.




                                              Police Commissioner



cc: Linda Taylor
    Lead Auditor, Audit Control Branch
    Audit and Review Division
    Office of Audit, Assessment, and Management
    Office of Justice Programs

    Lashon Hilliard
    Management Analyst
    Office of Conununity Oriented Policing Services




                                            - 24 ­
                                                                                  APPENDIX III


     OFFICE OF JUSTICE PROGRAMS RESPONSE

          TO THE DRAFT AUDIT REPORT


                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                  Office ofAudit. Assessment, and Management



                                                 Wou/Jlngl.... D.C. 10JJI


     OCT 25 2012

MEMORANDUM TO:                Thomas O. Puerzer
                              Regional Audit Manager
                              Philadelphia Regional Audit Office
                              Office of the Inspector General

FROM:                         M'""'n A. Honn'''''', /1,£'tf,.../2I-JaJL
                              Director                 LJ~                   ~
SUBJECT:                      Response to the Draft Audi t Report, Audit ofthe Office of
                              Community Oriented PoliCing Services and Office ofJustice
                              Programs Grants Awarded to the City of Boston, Massachusetts

This memorandum is in response to your correspondence, dated September 25, 2012,
tr.msmittiug the subject draft audit report for the City of Boston, Massachusetts (Boston). We
consider the subject report resolvcd and request written acceptance of th is action from your
office.

The draft audit report contains three recommendations and no questiom:d costs, of which two
recommendations are directed to the Office of Justice Programs (OJP), and one recommendation
is directed to the om!;!: of Community Oriented Policing Services. The followi ng i~ an analysis
of me draft audit report recommendations directed 10 OJP. For ease of review, the
recommendations are restated in bold and arc followed by our response.

1.      We recommend that OJP ensure that Boston computcs its indirect costs correctly.

        We agree with the reconunendation. We will coordinate with Boston to obtain a copy of
        procedures implemenled 10 en~'Ure Ihal indirect costs arc correctly computed.

2.      We recommend tha t OJP ensure that Boston completes the Federa l Financial
        Report§ accurately.

        We agree with the recommeJ?,dation. We will coordinate with Boston 10 obtain a copy of
        procedures implemenled to ensure that Federal Financial Rcports are accurately
        completed.




                                            - 25 ­
Thomas O. Puerzer, Regional Audit Manager, Phi ladelphia Regional Audit Office
OClOber 16, 2012
1':1 J.!'" 12

cc:    Thomas O. Puerzer (copy provided electronically)
       Regional Audit Manager
       Office of the Inspecto r General
       Chicago Regional Audit OOice

       Louise H. Duhamel , Ph. D (copy provided electronically)
       Acting Assistant Director, Audit Liaison Group
       Internal Rev iew and Evaluation Office
       Justice Management Di vision

       Marcia O. Samue ls-Campbe ll (copy provided electronically)
       Acting Deputy Director for Operations
       Audit Liaison Divi sion
       Office of Commun ity O riented Po li cing Serv ices (COPS)

       Martha Viterito (copy provided electronically)
       Aud it Liai son
       COPS Audit Liaison Division

       Aud it Fi le Copy
       ORI: MAOl301




                                          - 26 ­
                                                                                     APPENDIX IV

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT



                 u.s. DEPARTMENT OF JU STICE
                 OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

                 Gram Operations Directorate/ Audit Liaison Diyis ion
                                                                                      COPS
                 145 N Street, N.E., Washingto n, D C 20530

                                          MEMORANDUM

   Via E-Mail
   To :           Thomas O. Puerzer
                  Regional Audit Manager
                  Office of the Inspector General
                  Philadelphia Re~ it Office
                                    ion    u

    From:         Lashon M. Hilr ar
                  Management A alyst
                  COPS Audit Liaison Di vision

    Date:         October 16, 2012

    Subject:      Response to the Draft Audit Report for the Hiring Recovery Program (CHRP)
                  Grant to the Boston Police Department, Boston , Massachusetts
                  COPS CHRP Grant 2009RJWX0049

            This memorandum is in response to your draft audit report, dated September 25, 2012,
    for the Boston Police Department (BPD), Boston, MA. For ease of review, each audit
    recommendation is stated in bold and underlined, followed by COPS' response to the
    recommendation.

    Recommendation 3: Ensure Boston develops internal control procedures to accurately
    report Recoverv Act application statistical data.

        COPS concurs that BPD should develop internal control procedures to accurately report
    Recovery Act application statistical data.

    Discussion and Completed Action(s):
         After review of your report and the grantee's response, BPD created and implemented
    Protocols for the BPD's Grants Management Manual (effective date October 15, 2012), which is
    designed to enhance the review and approval of statistical data prior to grant submission.

    Request

            Based on the discussion and completed actions, COPS requests closure of
        Recommendation 3, COPS only audit finding.




    ADVANCING PUBLIC SAFETY THROUGH COMMUNITY POLICING
                             It




                                                - 27 ­
Thomas O. Puerzer, Regiona l Audit Manager, Phil adel phia Regional Audit Office
OClOber 16,201 2
1':1 J-! c 12

cc:    Thomas O. Puerzer (copy provided electronically)
       Regional Audit Manager
       Office of the Inspecto r General
       Chicago Regional Audit Offi ce

       Lo ui se H. Duhamel , Ph. D (copy provided electro nically)
       Acting Assistant Director, Audit Li aison Group
       Internal Rev iew and Evaluation Offi ce
       Justice Managemen t Division

       Marcia O. Samue ls-Campbe ll (copy provided elec tronically)
       Acting Deputy Director for Operations
       Audit Liaison Division
       Offi ce of Community Oriented Poli cing Services (COPS)

       Martha Viterito (copy provided electroni call y)
       Aud it Liaison
       COPS Audit Liaison Division

       Aud it File Copy
       ORI: MAO l 30 1




                                             - 28 ­
                                                             APPENDIX V



    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

          SUMMARY OF ACTIONS NECESSARY TO 

                   CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Boston Police
Department (Boston), the Office of Justice Programs (OJP), and the Office of
Community Oriented Policing Services (COPS) for review and comment.
Boston’s response is included as Appendix II of this final report, the OJP
response is included as Appendix III and the COPS response is included as
Appendix IV. The following provides the OIG analysis of the responses.
Based on the OIG’s analysis of the responses, this audit report is issued
closed.

Recommendation Number

  1. Closed. Boston and OJP concurred with our recommendation to

     ensure Boston computes its indirect costs accurately.


     In its response, Boston provided a new protocol designed to ensure
     indirect costs are accurately calculated and reported.

     This recommendation is closed.

  2. Closed. Boston and OJP concurred with our recommendation to
     ensure Boston completes its Federal Financial Reports accurately.

     In its response, Boston provided a new protocol designed to ensure
     indirect costs are accurately calculated and reported in the Federal
     Financial Reports.

     This recommendation is closed.

  3. Closed. Boston and COPS concurred with our recommendation to
     ensure Boston establishes internal control procedures to verify that it
     submits accurate Recovery Act statistical data.

     In its response, Boston provided a new protocol designed to enhance
     the review and approval of statistical data prior to the submission of
     its grant applications.

     This recommendation is closed.




                                   - 29 ­
